No. 20A94

In the Supreme Court of the United States
HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY, INC.,
ITSELF AND ON BEHALF OF ITS MEMBER CHURCHES IN CALIFORNIA,
Applicants,
v.
GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY
AS THE GOVERNOR OF CALIFORNIA,

Respondent.

On Emergency Application for Writ of Injunction to the Honorable
Elena Kagan, Associate Justice of the United States Supreme
Court and Circuit Justice for the Ninth Circuit

UNOPPOSED MOTION BY SOUTH BAY UNITED
PENTECOSTAL CHURCH AND BISHOP ARTHUR HODGES III,
WITH ATTACHED PROPOSED AMICUS CURIAE BRIEF IN
SUPPORT OF APPLICATION AND IN SUPPORT OF
EMERGENCY APPLICATION FOR WRIT OF INJUNCTION, FOR
LEAVE (1) TO FILE THE BRIEF, (2) TO DO SO IN AN UNBOUND
FORMAT ON 8½-BY-11-INCH PAPER, AND (3) TO DO SO
WITHOUT TEN DAYS’ ADVANCE NOTICE TO THE PARTIES
CHARLES S. LIMANDRI
PAUL M. JONNA
Counsel of Record
JEFFREY M. TRISSELL
LIMANDRI & JONNA LLP
Post Office Box 9120
Rancho Santa Fe,
CA 92067
(858) 759-9930
pjonna@limandri.com

THOMAS BREJCHA
PETER BREEN
THOMAS MORE SOCIETY
309 W. Washington St.
Ste. 1250
Chicago, IL 60606
(312) 782-1680

HARMEET K. DHILLON
MARK P. MEUSER
DHILLON LAW GROUP INC.
177 Post St., Ste. 700
San Francisco, CA 94108
(415) 433-1700

Attorneys for Proposed Amici Curiae

UNOPPOSED MOTION FOR LEAVE (1) TO FILE AMICUS CURIAE BRIEF
OF SOUTH BAY UNITED PENTECOSTAL CHURCH AND BISHOP
ARTHUR HODGES III IN SUPPORT OF APPLICATION AND IN SUPPORT
OF EMERGENCY APPLICATION FOR WRIT OF INJUNCTION, FOR LEAVE
(1) TO FILE THE BRIEF, (2) TO DO SO IN AN UNBOUND FORMAT ON 8½BY-11-INCH PAPER, AND (3) TO DO SO WITHOUT TEN DAYS’ ADVANCE
NOTICE TO THE PARTIES 1
Movants, a Pentecostal church in San Diego County, California, and its pastor,
Bishop Arthur Hodges III (“South Bay”), that are litigating a substantially similar
action in the Southern District of California and before the Ninth Circuit, respectfully
request leave of the Court to (1) file the attached amicus curiae brief in support of
applicants and in support of applicants’ emergency application for a writ of
injunction, (2) file the brief in an unbound format on 8½-by-11-inch paper, and (3) file
the brief without ten days’ advance notice to the parties.
Position of the Parties
Applicants and Respondent consent to this motion.
Identities of Amici; Rule 29.6 Statement
The proposed amici are a California church and its pastor. South Bay
Pentecostal Church is a nonprofit public benefit corporation organized under the laws
of the State of California. It does not have any parent corporation or any stock. Bishop
Hodges is the Senior Pastor and Chief Executive Officer of South Bay Pentecostal
Church.

No counsel for a party authored this motion or the proposed amicus brief in whole
or in part, and no person other than amici and their counsel made a monetary
contribution to fund the motion’s or brief’s preparation or submission.
1

i

Interests of Amici; Summary of Proposed Brief
Movants are a California church and its pastor who are actively litigating a
nearly identical case in the Southern District of California and before the Ninth
Circuit. Movants have carefully followed all of the religious liberty litigation in
California challenging Governor Newsom’s COVID-19 restrictions, including their
own case, and cases in California Superior Court. Following this Court’s denial of
their emergency application for a writ of injunction, the Ninth Circuit granted
Movants limited remand to the district court for the purpose of supplementing the
record, and now Movants are again litigating their challenge before the Ninth Circuit.
Upon reviewing this Court’s decision in Roman Catholic Diocese of Brooklyn v.
Cuomo, 592 U.S. ___, 2020 WL 6948354 (2020), as well as Respondent Governor
Newsom’s brief in the present application, Movants determined that various
statements in Governor Newsom’s brief needed correcting lest this Court issue an
order that prejudices Movants’ rights in their case, and the rights of other churches
fighting in California Superior Court for the right to worship.
In addition, this Court should explicitly reject the notion that Governor
Newsom’s “Blueprint for a Safer Economy” is neutral based on its classification of
like-industries-alike, see Resp. Br., 11–14, 18–22, when Governor Newsom also
contends that such classification is a scientific one entitled to deference. Contrary to
Governor Newsom’s arguments, such classification is both rebuttable and has been
rebutted by preeminent experts in Movant’s own action. Further, this Court should
make very clear that traditional strict scrutiny analysis applies to all religious

ii

challenges to COVID-19 orders—guidance which various lower courts desperately
need. Contrast Resp. Br., 38 n.28.
Finally, relief is needed from this Court—not the Ninth Circuit. See Resp. Br.,
16–18. In addition to civil rights actions in every federal court in California, there are
pending administrative and state law actions brought by California municipalities in
California state court. These actions seek thousands of dollars in fines and contempt
sanctions. Only an opinion from this Court will bind those proceedings.
Format and Timing of Filing
Applicants filed their emergency application on November 23, 2020; two groups
of proposed amici filed their motions for leave to file amicus curiae briefs on
November 25 and 27, 2020; and Respondent filed his brief on November 30, 2020.
Upon reviewing Respondent’s brief in the evening of November 30, proposed amici
determined that an amicus brief would aid the Court, and immediately determined
to file one. In light of the need to file this brief immediately, there was insufficient
time for the proposed amici to prepare their brief for printing and filing in booklet
form, as ordinarily required by Supreme Court Rule 33.1. Nor, for the same reason,
were the proposed amici able to provide the parties with ten days’ notice of their
intent to file the attached brief, as ordinarily required by Rule 37.2(a). But the
proposed amici did provide notice of their intent to file the brief to the parties in the
morning of December 1, 2020, promptly after reviewing Respondent’s brief, and all
parties consented to the filing of the amicus brief.
*

*

iii

*

For the foregoing reasons, the proposed amici respectfully request that the
Court grant this motion to file the attached proposed amicus brief and accept it in the
format and at the time submitted.
Respectfully submitted,
/s/ Paul M. Jonna
CHARLES S. LIMANDRI
PAUL M. JONNA
Counsel of Record
JEFFREY M. TRISSELL
LIMANDRI & JONNA LLP
Post Office Box 9120
Rancho Santa Fe, CA 92067
(858) 759-9930
pjonna@limandri.com
THOMAS BREJCHA
PETER BREEN
THOMAS MORE SOCIETY
309 W. Washington St.
Ste. 1250
Chicago, IL 60606
(312) 782-1680
HARMEET K. DHILLON
MARK P. MEUSER
DHILLON LAW GROUP INC.
177 Post St., Ste. 700
San Francisco, CA 94108
(415) 433-1700
Counsel for Proposed Amici Curiae
DECEMBER 2020

iv

No. 20A94

In the Supreme Court of the United States
HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY, INC.,
ITSELF AND ON BEHALF OF ITS MEMBER CHURCHES IN CALIFORNIA,
Applicants,
v.
GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY
AS THE GOVERNOR OF CALIFORNIA,

Respondent.

On Emergency Application for Writ of Injunction to the Honorable
Elena Kagan, Associate Justice of the United States Supreme
Court and Circuit Justice for the Ninth Circuit

BRIEF OF SOUTH BAY UNITED PENTECOSTAL CHURCH AND
BISHOP ARTHUR HODGES III AS AMICUS CURIAE IN
SUPPORT OF APPLICATION AND IN SUPPORT OF
EMERGENCY APPLICATION FOR WRIT OF INJUNCTION
CHARLES S. LIMANDRI
PAUL M. JONNA
Counsel of Record
JEFFREY M. TRISSELL
LIMANDRI & JONNA LLP
Post Office Box 9120
Rancho Santa Fe,
CA 92067
(858) 759-9930
pjonna@limandri.com

THOMAS BREJCHA
PETER BREEN
THOMAS MORE SOCIETY
309 W. Washington St.
Ste. 1250
Chicago, IL 60606
(312) 782-1680

HARMEET K. DHILLON
MARK P. MEUSER
DHILLON LAW GROUP INC.
177 Post St., Ste. 700
San Francisco, CA 94108
(415) 433-1700

Attorneys for Proposed Amici Curiae

5

TABLE OF CONTENTS
INTRODUCTION ........................................................................................................1
RELEVANT FACTUAL BACKGROUND ..................................................................2
A.

Plaintiffs Bishop Hodges and South Bay Pentecostal Church. ....................2

B.

Other Actions in California Superior Court ..................................................6

C.

The Endless Lockdown of the “Blueprint”.....................................................9

ARGUMENT ..............................................................................................................13
1.

California Churches Will Likely Succeed on the Merits: The
Blueprint violates Worshippers’ Free Exercise Rights. ..............................13
1.1. California’s Restrictions on Worship Are Subject to Strict
Scrutiny ................................................................................................13
1.2. California’s Restrictions Cannot Satisfy Strict Scrutiny ....................17

2.

The Confusion in the Lower Courts, and Multiplicity of
California Actions, Justifies Guidance from this Court. ............................23

CONCLUSION...........................................................................................................24

i

TABLE OF AUTHORITIES
Cases:
19, 20

Calvary Chapel Dayton Valley v. Sisolak,
140 S. Ct. 2603 (2020)
Catholic Charities of Sacramento, Inc. v. Superior Court,
32 Cal. 4th 527 (2004)
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah,
508 U.S. 520 (1993)
Dep’t of Health & Human Servs. v. Manke,
943 N.W.2d 397 (Mich. 2020)

16
3, 13, 14, 15, 17, 22
2

Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal,
546 U.S. 418 (2006)

19

Harvest Rock Church, Inc. v. Newsom,
977 F.3d 728 (9th Cir. 2020)

14

Jacobson v. Commonwealth of Massachusetts,
197 U.S. 11 (1905)

3, 17
15, 16

Korematsu v. United States,
323 U.S. 214 (1944)
McCreary Cty., Ky. v. Am. Civil Liberties Union of Ky.,
545 U.S. 844 (2005)

22

McCullen v. Coakley,
573 U.S. 464 (2014)

23

Our Lady of Guadalupe Sch. v. Morrissey-Berru,
140 S. Ct. 2049 (2020)

20

Roman Catholic Diocese of Brooklyn v. Cuomo,
592 U.S. ___, 2020 WL 6948354 (2020)

1, 2, 6, 16, 17, 19, 23

S. Bay United Pentecostal Church v. Newsom,
959 F.3d 938 (9th Cir. 2020)

3, 13, 16

S. Bay United Pentecostal Church v. Newsom,
140 S. Ct. 1613 (2020)

4, 23

ii

Trump v. Hawaii,
38 S. Ct. 2392 (2018)

16

United States v. Playboy Entm’t Grp., Inc.,
529 U.S. 803 (2000)

20

Actions:
Abiding Place Ministries v. Cty. of San Diego,
No. 20-cv-0683-BAS, 2020 WL 1881323 (S.D. Cal. Apr. 9, 2020)

3

Burfitt v. Newsom,
Kern Cnty. No. BCV-20-102267 (Cal. Super. Sep. 29, 2020)

8

County of Los Angeles v. Grace Community Church of the Valley,
L.A. Cnty. No. 20STCV30695 (Cal. Super. Aug. 14, 2020)

7

Grace Community Church of the Valley v. Newsom,
L.A. Cnty. No. 20BBCV00497 (Cal. Super. Aug. 12, 2020)

iii

6, 7

INTRODUCTION
It has now been over eight months since the COVID-19 pandemic was first
identified as a serious threat to society, when across the nation many states,
including California, initiated two-week “lockdowns” in an attempt to slow the spread
of the virus. The stated goal to justify such extreme measures was to “flatten the
curve” so that hospitals would not be overwhelmed and lives unnecessarily lost.
At that time, little was known for certain about how the novel coronavirus
spread. Recognizing that a complete shutdown of human activity would be impossible,
Governor Newsom designated certain “sectors” as “essential,” thus permitting
various businesses or organizations to continue operating during the lockdown, as
long as they complied with industry guidelines regulating how they did their work.
Places of Worship were excluded from “essential” activities, and a small concession
categorized clergy as essential only while working remotely. Governor Newsom
compounded his error by designing burdensome barriers impacting the ability of
religious congregations, such as Amici South Bay United Pentecostal Church and
Bishop Arthur Hodges III (collectively “South Bay”), to practice their faith within
both the “Resilience Roadmap” of May 7, 2020 and, even more egregiously, through
its successor, the “Blueprint to a Safer Economy” of August 27, 2020.
But then at midnight on Wednesday, November 25, 2020, this Court issued a
per curiam opinion in Roman Catholic Diocese of Brooklyn v. Cuomo, 592 U.S. ___,
2020 WL 6948354 (2020), enjoining New York’s COVID-19 restrictions as applied to
churches. This Court recognized that “[i]t is incumbent on the courts to ensure

1

decisions are made according to the rule of law, not hysteria. . . . One hopes that this
great principle—essential to any free society, including ours—will not itself become
yet another casualty of COVID-19.” Dep’t of Health & Human Servs. v. Manke, 943
N.W.2d 397, 398 (Mich. 2020) (Viviano, C.J., concurring). Although Respondent
requests that this Court instruct the Ninth Circuit to reconsider Harvest Rock’s
motion for injunctive relief pending appeal in light of Diocese of Brooklyn, see Resp.
Br., 16–18, the unique aspects of California’s restrictions—such as the indoor worship
ban, and ban on congregational singing—warrant this Court’s guidance. South Bay
thus submits this brief to ensure that its interests, and the interests of all California
churches, are protected.
RELEVANT FACTUAL BACKGROUND
A. Plaintiffs Bishop Hodges and South Bay Pentecostal Church.
Bishop Arthur Hodges III is Senior Pastor of South Bay Pentecostal Church, a
diverse Christian community in Chula Vista, California. Before the pandemic
restrictions, the church held three to five worship services every Sunday, for
congregants to “come together with one accord” to pray and worship. Along with
worship services, the church ministered to the faithful by performing baptisms,
funerals, weddings, and other religious ceremonies. The sanctuary of South Bay
Pentecostal Church can seat up to 600 people, but was usually only a third-, or halffilled, with 200–300 congregants. 2ER305–13. 2
Citations to “ER” and “9th Cir. Dkt.” are to the Excerpts of Record and the Docket
in South Bay’s pending appeal before the Ninth Circuit, No. 20-55533. Following
limited remand, there are now 16 volumes of the Excerpts of Record, located at 9th

2

2

Almost as soon as various state governors began issuing executive orders
intended to curb the COVID-19 pandemic, suits were filed alleging that the orders
infringed upon constitutional rights. See Verified Complaint, Abiding Place
Ministries v. Cty. of San Diego, No. 20-cv-0683-BAS, 2020 WL 1881323 (S.D. Cal. Apr.
9, 2020). South Bay did not join in those lawsuits because the Church believed it was
important to do its part in curbing the pandemic in March and April.
However, on Friday, May 8, 2020, the day California entered Stage 2 of its
then-operative Resilience Roadmap, South Bay filed suit in the Southern District of
California. That same day, South Bay filed an application for a temporary restraining
order. 3ER609–10; Dist. Ct. Dkt. Nos. 3, 12. On Friday, May 15, 2020, the District
Court denied South Bay’s application. 1ER1–33. That same day, South Bay appealed
to the Ninth Circuit, and the next day filed an urgent motion for an injunction
pending appeal. 2ER43–47; 9th Cir. Dkt. No. 2.
On Friday, May 22, 2020, the Ninth Circuit’s motions panel issued its order on
South Bay’s motion for an injunction pending appeal. 9th Cir. Dkt. No. 29; S. Bay
United Pentecostal Church v. Newsom, 959 F.3d 938 (9th Cir. 2020) (“S. Bay I”). The
panel, Judges Silverman and Nguyen, issued a three-page order holding that strict
scrutiny was not required under Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520 (1993) (“Lukumi”). Judge Collins published an eighteen-page
dissent in which he concluded that Jacobson does not apply to Free Exercise claims,

Cir. Dkt. Nos. 3 and 82. Citations to “Dist. Ct. Dkt.” are to South Bay’s action before
the Southern District of California, No. 3:20-cv-865.
3

California’s Resilience Roadmap was not “neutral” or “of general applicability,” and
did not satisfy strict scrutiny.
During the week following Monday, May 25, 2020, California lifted the first
ban on all worship services. On May 29, 2020, this Court denied South Bay’s
application for an emergency writ of injunction. 9th Cir. Dkt. No. 31; S. Bay United
Pentecostal Church v. Newsom, 140 S. Ct. 1613 (2020) (“S. Bay II”). The denial was
accompanied by a short concurring opinion by Chief Justice Roberts and a vigorous
dissent by Justice Kavanaugh.
The following Sunday, May 31 (Pentecost Sunday), South Bay held worship
services with no more than 100 persons in attendance. 13ER2993–94. To attend a
Sunday worship service, the Church required its congregants to reserve their place
online. Every Sunday, the Church had to turn numerous people away because it met
the 100-person cap for each of its services. This is despite the fact that the sanctuary
could safely (with social distancing) accommodate well over 100 persons. 13ER2994.
South Bay went above and beyond with its safety measures, which led to the Church
being unable to hold more than three worship services each Sunday. 13ER2994–95.
On June 12, 2020, California modified its uniform treatment of “protest” and
worship.” Under the June 12 regulations, there are no restrictions on protest or
worship, so long as they occur outdoors, not indoors. But this did not help South Bay.
The Church, like many other Places of Worship, does not have an adequate place
where it can meet outdoors. More problematically, the Church’s theology requires
approaching the altar at the end of each service and performing baptisms (both with

4

social distancing as possible). The Church’s altar and baptistery is in its sanctuary
auditorium, which is indoors. 13ER2993.
On July 6, 2020, in addition to the above restrictions, California published
regulations stating that “Places of Worship must [] discontinue indoor singing and
chanting activities.” 13ER3121. This restriction is particularly concerning because
singing is at the very heart of Pentecostal worship services, and essentially acts as a
ban on them. 13ER2993; 11ER2576–82. During these months, the parties filed their
briefs on appeal before the Ninth Circuit. 9th Cir. Dkt. Nos. 36, 45, 46, 62.
On July 29, 2020, the Ninth Circuit ordered limited remand of the
interlocutory appeal from the denial of South Bay’s motion for temporary restraining
order “for the limited purpose of permitting the district court to consider Plaintiffs’
request in light of the events and case law that have developed since May 15, 2020.”
9th Cir. Dkt. No. 74 at 2.
Before the district court, South Bay filed a Verified Second Amended
Complaint, 13ER2971–3028, submitted all of the extra-record evidence cited in its
prior briefs before the Ninth Circuit and this Court, 13ER3029–14ER3599;
11ER2576–12ER2837; 5ER640–675, 731–907, and supplemented the record with
declarations from esteemed experts, including new declarations from George
Delgado, M.D., of COVID Planning Tools, 12ER2838–2852; 5ER715–730; and
declarations from Jayanta Bhattacharya, M.D., Ph.D., a Stanford University
medicine professor and author of the Great Barrington Declaration, 11ER2526–2540;
5ER664–671, 712–714; Sean Kaufman, CPH, an infectious disease specialist formerly

5

of the CDC, 13ER2917–2924; James Lyons-Weiler, Ph.D., a Bioinformatics research
scientist, 13ER2925–2970; and Charles Cicchetti, Ph.D., a former economics
professor, 13ER2853–2916. 3
Nevertheless, on October 15, 2020, the District Court denied South Bay’s
Renewed Motion. 4ER614–639. Following the issuance of that order, the Ninth
Circuit Court ordered supplemental briefing, which the parties provided. That
supplemental briefing primarily concerned Governor Newsom’s new “Blueprint for a
Safer Economy,” which replaced the Resilience Roadmap. 9th Cir. Dkt. Nos. 83, 88,
89. Oral argument has yet to be scheduled.
On Tuesday, November 24, 2020, South Bay filed a petition for a writ of
certiorari before judgment with this Court, No. 20-746. The next day, at midnight,
this Court issued a per curiam opinion in Diocese of Brooklyn, 2020 WL 6948354.
Because of the present Application submitted by Harvest Rock, South Bay has waited
to file a motion for an injunction pending appeal in the lower courts, should this Court
provide clear guidance. On December 1, 2020, the Ninth Circuit stayed all
proceedings pending resolution of this application. 9th Cir. Dkt. No. 95.
B. Other Actions in California Superior Court
In addition to South Bay’s and Harvest Rock’s federal actions, there are
numerous California Superior Court religious liberty actions, two of which South Bay

Those declarations addressed California’s then-operative “Resilience Roadmap,” but
are transferrable to California’s present “Blueprint for a Safer Economy” because the
defects remain the same.
3

6

will highlight. 4 The first is a pair of actions titled Grace Community Church of the
Valley v. Newsom, L.A. Cnty. No. 20BBCV00497 (Cal. Super. Aug. 12, 2020), and
County of Los Angeles v. Grace Community Church of the Valley, L.A. Cnty. No.
20STCV30695 (Cal. Super. Aug. 14, 2020).
There, despite Governor Newsom’s orders, Grace Community Church began
holding indoor worship services on Sunday, July 26, 2020, and has continued every
Sunday since. Upon receiving a cease and desist letter from the County of Los
Angeles, on Wednesday, August 12, 2020, Grace Community Church filed a civil
rights action seeking injunctive relief in California Superior Court. Two days later,
instead of filing a cross-action, the County of Los Angeles filed its own action, and
sought a temporary restraining order against Grace Community Church, asserting
that the church’s worship services constituted a public nuisance.
The Court, the Hon. James C. Chalfant, denied the temporary restraining
order in part, refusing to enjoin all indoor worship services as long as Grace
Community Church complied with social distancing and mask wearing requirements.
See 5ER778–92 (hearing transcript). That same day, the County of Los Angeles filed
a petition for writ of mandate seeking an injunction from the court of appeal. The
next day, Saturday, August 15, 2020, the appellate court stayed Judge Chalfant’s
ruling, but did not grant the injunction. The practical effect of the stay was that the
County could issue a $1,000 citation against Grace Community Church for holding

4

Counsel for South Bay also represents the religious objectors in these cases.
7

worship services, but there was no court order in place enjoining worship services.
Towards the end of August, the County of Los Angeles ramped up its efforts to
shut down the worship services. On August 28, the County issued a notice of eviction
to Grace Community Church, providing thirty days’ notice that it was terminating its
rental agreement for the church’s parking lot. And on Sunday, August 30, 2020, the
County of Los Angeles’ Department of Public Health issued its first administrative
citation to Grace Community Church. The County has continued issuing $1,000
citations every week.
The preliminary injunction motion was ultimately heard by the Hon. Mitchell
Beckloff—not Judge Chalfant. On Thursday, September 10, 2020, Judge Beckloff
granted the County’s requested preliminary injunction. Grace Community Church
continued worshipping. A contempt trial is now set for January 15, 2021.
The second action is titled Burfitt v. Newsom, Kern Cnty. No. BCV-20-102267
(Cal. Super. Sep. 29, 2020). Father Trevor Burfitt is a Roman Catholic priest and a
pastor of five churches, in four different California counties, that are associated with
an international order of Catholic priests. After filing suit, and apparently in direct
retaliation for the lawsuit, on October 15, 2020, two health inspectors from the
County of Los Angeles visited one of his churches and issued it a $1,000 citation for
the “illegal” use of the 500-seat capacity sanctuary by “approximately 11” Catholic
worshipers. The citation did not state whether the worshippers were socially
distancing or wearing masks, but simply noted that permitting anybody to enter the
church in the “purple tier”—even if they are praying alone—violated the health order.

8

An administrative appeal hearing is now set for January 14, 2021.
C. The Endless Lockdown of the “Blueprint”
On August 28, 2020, an entirely new bureaucratic scheme: the “Blueprint for a
Safer Economy,” superseded California’s prior Resilience Roadmap and its County
Monitoring List. 5ER885–907. With that scheme, Governor Newsom changed the
parameters for evaluating the impact of COVID-19, to focus on the number of cases
rather than the number of deaths or hospitalizations. 5 Anyone who tests positive for
the virus in California has a “case” of COVID-19, even if the person tested was
asymptomatic or only mildly affected, never required hospitalization or even a doctor’s
visit, i.e., is not ill. The Blueprint assigns counties to four color-coded “tiers” of “risk”
which is totally reliant on the amount of testing (and penalizes a county for undertesting) plus the number of positive case results regardless of severity. 8ER1733–55.

Prior County metrics: (1) 10% or greater increase in average COVID-19
hospitalizations during the past 3 days; (2) Fewer than 20% of ICU beds available;
and (3) Fewer than 25% of ventilators available. See 13ER2856–2857.

5

9

“Purple” tier - Widespread: more than 7 “cases” per day per 100,000 people
and more than 8% positive tests. In this tier “many non-essential indoor business
operations are closed.” Places of Worship, since they are classified as non-essential,
are not allowed to open. Services must be held outdoors only. The following activities
are permitted to reopen indoors at full or (where indicated below) reduced indoor
capacity, and with the proviso that “counties can restrict further,” 8ER1751–55:
o “Essential” retail
businesses (e.g., liquor
stores, cannabis
dispensaries)

o Convenience stores

o All government offices

o Doctors and Dentists

o Hotels

o All “essential retail”
offices

o Dry Cleaners

o Hotel fitness centers
(50%)

o Appliance Repair
Shops
o Auto Repair Shops
o Banks and Credit
Unions
o Bookstores (25%)
o Carwashes
o Childcare

o Day Camps (including
indoor facilities)

o Farmer’s markets
Florists (25%)

o Home improvement
stores (25%)
o Pharmacies

o Jewelry stores (25%)

o Gas stations

o Laundromats

o Grocery stores (50%)

o Libraries (25%)

o Hair Salons and
Barbershops

o Non-essential retail
(e.g., toy stores) (25%)

o Higher education
o Pet Groomers
institutions (in “certain
indoor settings, like
labs and studio arts”)

Subsequently, California determined that “Personal Care Services” including
“esthetic, skin care, electrology, nail services, body art professionals, tattoo parlors,
and piercing shops, and massage therapy” could also open indoor in the “purple” tier. 6

See Blueprint for a Safer Economy: Activity and Business Tiers, CAL. DEPT. PUB.
HEALTH (Nov. 13, 2020 update), https://www.cdph.ca.gov/Programs/CID/DCDC/
6

10

“Red” tier - Substantial: 4–7 “cases” per day per 100,000 people and 5-8%
positive tests. In this tier, “some non-essential indoor business operations are closed.”
Places of Worship, considered a non-essential indoor business, may open, but with a
cap of 25% or 100 people whichever is fewer.
“Orange” tier - Moderate: 1–3.9 “cases” per day per 100,000 people and 24.9% positive tests. In this tier, “some indoor business operations are open with
modifications.” Places of Worship are allowed 50% capacity or 200 people, whichever
is fewer. Retail, Shopping centers, personal care services, hair salons and barbershops
have no capacity restrictions. Museums, Zoos and Aquariums can open up to 50%
with no hard cap.
“Yellow” tier: - Minimal: less than one “case” per day per 100,000 people and
less than 2% positive tests. In this tier, “most indoor business operations are open
with modifications.” 5ER903– 905. Places of Worship are still subject to 50% capacity
restrictions. No capacity restrictions for Museums, Zoos and Aquariums.
The Industry Guidances previously issued on April 28, 2020 now include a
colored-coded chart for each Industry, which show the restrictions as applied for each
tier of risk. The specific “Industry Guidance” for churches provides the following
limitations, depending on what tier the county is in. 8ER1753.

CDPH%20Document%20Library/COVID-19/Dimmer-FrameworkSeptember_2020.pdf; COVID-19 Industry Guidance: Expanded Personal Care
Services,
CAL.
CORONAVIUS
(COVID-19
RESPONSE
(Oct.
20,
2020),
https://files.covid19.ca.gov/pdf/guidance-expanded-personal-care-services--en.pdf.
11

Notably, the Blueprint has no provision for returning to full liberty. Even the
“yellow” risk tier, in which less than one “case” per day can be found per 100,000
people, only permits 50% church capacity. There is no “green” tier in the Blueprint
because, as the Governor explained, “[w]e don’t put up green because we don’t believe
that there’s a green light that says just go back to the way things were or back to the
pre-pandemic mindset.” 7
On November 16, Governor Newsom exercised the “emergency brake” he
designed into the Blueprint—the tool by which he can override the Blueprint and

Gov. Newsom Outlines California’s New Simplified, 4-Tier COVID-19 Reopening
Guidelines, CBS SF BAYAREA (Aug. 28, 2020), https://sanfrancisco.cbslocal.com/2020/
08/28/govnewsom-californiasnewsimplified-color-coded-covid-reopening-guidelines/.
7

12

take whatever action he desires. Using that “emergency brake,” Governor Newsom
pushed “94.1 percent of California’s population” into the Purple Tier. 8
Under the Blueprint, Governor Newsom clearly envisions continuing his State
of Emergency for an indeterminate amount of time, all the while subjecting California
residents to a yo-yo experience of yanking between tiers, based on backroom
statistical analyses and predictors that ignore the reality of what Californians need
to survive economically and, even more importantly for those who practice a religious
faith, spiritually.
ARGUMENT
1.

California Churches Will Likely Succeed on the Merits: The Blueprint
violates Worshippers’ Free Exercise Rights.

1.1. California’s Restrictions on Worship Are Subject to Strict
Scrutiny

Under the First Amendment, a law burdening religion need only pass rational
basis scrutiny if it is “neutral” and “of general application.” S. Bay I, 959 F.3d at 941
(Collins, J., dissenting) (citing Lukumi, 508 U.S. at 531). On the other hand, a law
that is not neutral or not generally applicable must satisfy strict scrutiny. Id. at 944
(Collins, J., dissenting). In turn, a law is not neutral if its object is to infringe on
religious exercise. Id. It is also not generally applicable if it is substantially
underinclusive as to its purposes—that is, if it “fail[s] to prohibit nonreligious conduct

Governor Newsom Announces New Immediate Actions to Curb COVID-19
Transmission, OFFICE OF GOVERNOR GAVIN NEWSOM (Nov. 16, 2020),
https://www.gov.ca.gov/2020/11/16/governornewsom-announces-new-immediateactions-to-curb-covid-19-transmission/.
8

13

that endangers [the government’s] interests in a similar or greater degree than
[plaintiff’s religious exercise] does.” Lukumi, 508 U.S. at 432.
This Court has made clear that when COVID-19 orders restrict a church to a
greater degree than “ ‘essential’ businesses,” “acupuncture facilities, camp grounds,
garages,”

“all

plants

manufacturing

chemicals

and

microelectronics,”

“all

transportation facilities,” “a large store . . . that could ‘literally have hundreds of
people shopping there on any given day,’ ” or “factories and schools,” the orders are
not neutral. Diocese of Brooklyn, 2020 WL 6948354, at *2. They are also not neutral
when “statements made in connection with the challenged rules can be viewed as
targeting” religious worshippers. Id.
Here, as shown above, California’s occupancy restrictions on churches are
plainly greater than those imposed on other industries. See Section A, supra. The ban
on singing in church is also not neutral because it only applies to certain industries,
and not others. See 9th Cir. Dkt. 89 at 17 n.6 (California’s supplemental brief noting
that the singing ban only applies to churches, protests, schools, and restaurants)
(citing 7ER1405, 1420, 1432); see also Harvest Rock Church, Inc. v. Newsom, 977 F.3d
728, 733–34 (9th Cir. 2020) (O’Scannlain, J., dissenting) (finding that the same
restrictions are neither neutral nor generally applicable).
Finally, here—contrary to Respondent’s argument, see Resp. Br., 29—
Governor Newsom’s statements show that churches have been targeted from the very
beginning. During an early May 7, 2020, press conference, Governor Newsom was

14

asked by a journalist why schools were being prioritized over places of worship. The
following exchange followed:
Q: Thank you Governor. Can you clarify why churches and
salons are in Stage 3 and not Stage 2. Um, what makes
them more high risk than schools, for example? Uh, what
factors are you weighing here when you decide what goes
into what phase?
A: Yeah, we’re, we’re looking at the science, epidemiology,
looking again at frequency, duration, time, uh, and looking
at low risk-high reward, low risk-low reward, looking at a
series of conditions and criteria, as well as best practices
uh from other states and nations.
13ER2983–84. In other words, places of worship have always been sidelined because
they provide a “low reward” in the eyes of Governor Newsom.
Respondent argues that his restrictions are neutral because non-neutrality is
only present where “the law at issue . . . regulates or prohibits conduct because it is
undertaken for religious reasons.” Resp. Br., 19 (quoting Lukumi, 508 U.S. at 532)
(italics added). Respondent, however, misunderstands the meaning of “because,”
following the meaning used in Korematsu:
It is said that we are dealing here with the case of
imprisonment of a citizen . . . solely because of his ancestry,
without evidence or inquiry concerning his loyalty. . . . Our
task would be simple, our duty clear, were this a case
involving [] imprisonment . . . because of racial prejudice
[but] . . . we are dealing specifically with nothing but an
exclusion order. . . . Korematsu was not excluded . . .
because of hostility to him or his race. He was excluded
because . . . the properly constituted military authorities
. . . decided that the military urgency of the situation
demanded that all citizens of Japanese ancestry be
segregated from the West Coast[.]

15

Korematsu v. United States, 323 U.S. 214, 223–24 (1944). In other words, it was
“because” of urgency, not because of “Japanese ancestry,” that the government could
restrict the rights of Mr. Korematsu and his fellow Japanese-Americans. Id.
Thus, according to Respondent, he can institute an express ban on worship qua
worship, and then explain to this Court that its facially discriminatory actions are not
motivated by invidious animus—and so everything is okay—just like in Korematsu.
This Court should not take up Respondent’s invitation. Restricting liberties “solely and
explicitly on the basis of [a protected characteristic], is objectively unlawful.” Trump v.
Hawaii, 138 S. Ct. 2392, 2423 (2018) (abrogating Korematsu). This Court should
explicitly reject this reasoning. See S. Bay I, 959 F.3d at 944 (Collins, J., dissenting).
This Court should further explicitly reject the argument, often made by
Respondent, that he may identify churches by name for disparate treatment so long as
he alleges this is done to give them preferential treatment. See Diocese of Brooklyn, 2020
WL 6948354, at *13 (Sotomayor, J., dissenting); Catholic Charities of Sacramento, Inc.
v. Superior Court, 32 Cal. 4th 527, 551 (2004). The simple problem with this argument
is that it is far too easy to lead to gerrymandering. The only truly “neutral” order that
is presently in place in California is that all residents are ordered to stay at home—
unless a specific exemption applies to them. See 13ER3030–3031. But with so many
exemptions to that order granted—so many in fact that few remember that the original
order is still in place—there is no meaningful way for courts to determine whether the
exemption that applies to churches is in reality preferential treatment or
discrimination.

16

Under the federal constitution, strict scrutiny must be applied to California’s
restrictions on worship.

1.2. California’s Restrictions Cannot Satisfy Strict Scrutiny
The Blueprint clearly fails strict scrutiny. In order to satisfy strict scrutiny and
thus advance a “compelling interest,” a law must not “leave[] appreciable damage to
[its] supposedly vital interest unprohibited.” Lukumi, 508 U.S. at 547 (internal
quotations omitted). But the Blueprint leaves unprohibited a vast amount of damage
to its interest in stopping COVID, given its numerous exemptions for activities that
involve large groups of people in close proximity for long durations (e.g., factories,
warehouses, meatpacking plants, homeless shelters, drop-in centers, public
transportation, protests, airlines and airline terminals, etc.), or that are otherwise
impossible to carry out while maintaining social distancing (e.g., personal care
services). Importantly, in Diocese of Brooklyn, this Court made clear that a traditional
Free Exercise analysis is required—not any lesser Jacobson analysis. See Diocese of
Brooklyn, 2020 WL 6948354, at *1–2 (citing and applying Lukumi, 508 U.S. at 546);
see also id. at *5 (Gorsuch, J., concurring) (“[A]ppl[ying] . . . the traditional legal test
associated with the right at issue [is] exactly what the Court does today”).
Even under a generic “equal protection” analysis, churches are treated far from
equally. For example, elementary and high schools were permitted to open back up
again at full-service capacity when their county entered the “red” tier, where adults
and children are inside of buildings for prolonged periods of time, with only a social
distancing requirement—no capacity limit—and are being allowed to stay open

17

despite their county’s return to the “purple” tier. 5ER809–828. 9 For colleges, in the
“red” tier a per-room capacity limit of 25% or 100 individuals has been implemented,
but a per-room limit means that larger buildings can house hundreds, if not
thousands of students. 5ER830–863. Remarkably, in the “purple” tier California even
permits counties to offer certain college courses indoors, including lab and art classes.
5ER839.
College athletic programs are also given special treatment. In the red-tier,
college athletic facilities are allowed to have players, coaches, and trainers indoors
for extended periods of time with no express limit on the amount of occupants inside
such facilities. In particular, California’s restrictions merely state that the “athletic
facilities must limit occupancy to essential personnel,” but do not put an actual limit
on the number of total people that can occupy that facility. 5ER839, 853–863. Like
California’s notable exemption of Hollywood from the coronavirus lockdown from the
very beginning, 13ER2980, 3055, this exemption may make economic sense, but not
constitutional sense.
Transit, manufacturing, and warehousing are also entitled to preferential
treatment, with California’s guidelines providing no capacity limit in the “purple”
tier. 13ER3001; 3ER328, 560–584; 5ER865–876. Although airlines are regulated by
the FAA, California could impose a quarantine on people who have recently flown

J.R. Stone, Move into purple tier will stop school districts looking to offer in-person
learning, ABC7 (Nov. 16, 2020), https://abc7news.com/coronavirus-california-purpletier-schools-in-person-learning/8030550/.

9

18

(like Hawaii), but instead California is content to respect the constitutional right to
travel. See 5ER878–883 (Los Angeles Times article noting how airlines have only selfimposed restrictions). Finally, even if a county moves back into the “red” tier,
bookstores, clothing and shoe stores, hair salons and barbershops, home and
furniture stores, jewelry stores, libraries, shopping malls, retailers, and nail salons
will be allowed to be opened at 50% capacity; museums are allowed to open at 25%
capacity; and movie theaters are allowed to open at 25%/100 person per screen—while
churches are limited to 25%/100 person total. 5ER885–907. As Justice Gorsuch said,
“[t]his is a simple case.” Calvary Chapel Dayton Valley v. Sisolak, 140 S. Ct. 2603,
2609 (2020) (Gorsuch, J., dissenting).
But, of course, the Free Exercise clause is not redundant of the Equal
Protection clause. Under the Free Exercise clause, the question is whether there is a
compelling government interest in preventing particular churches from holding
worship services (with singing) in their sanctuaries, see Gonzales v. O Centro Espirita
Beneficente Uniao do Vegetal, 546 U.S. 418, 430–31 (2006), when a church practices
social distancing, requires masks, checks temperature, regularly disinfects its
sanctuary, requires people showing symptoms to stay home, and so far has a perfect
record—no coronavirus infections. 13ER2995, 3020–3021; 5ER732. According to this
Court, the answer should be no. See Diocese of Brooklyn, 2020 WL 6948354, at *3. 10
Respondent argues that it is critical that this Court allow it to continue requiring
specific safety measures. Resp. Br., 28. In reality, it is critical that this Court allow
plaintiffs to raise necessary challenges under regular Free Exercise jurisprudence.
For “[i]n a country with the religious diversity of the United States, judges cannot be
expected to have a complete understanding and appreciation of” the requirements of
10

19

Respondent has never even attempted to answer this tailored question, instead
simply stating that worship services have led to some outbreaks. See Resp. Br., 4–5,
29. But none of Respondent’s anecdotal hearsay has related to the churches actually
seeking to reopen. Respondent’s habit of string-citing articles and cases is only
impressive from a distance. 7ER1468–8ER1643; 8ER1911–1927; see also 5ER778–
779, 787, 791–792 (California Superior Court Judge Chalfant reviewing same news
articles and concluding that they are “not evidence,” “not good enough,” and “you can’t
just make stuff up” to justify restricting religious rights). There have been a grand
total of 650 confirmed COVID-19 cases tied to worship services, with at least one
million worship services being performed during the pandemic by the Catholic
Church alone. 5ER716–717. Further, when Respondent’s anecdotal cases are
examined closely, the newspaper hearsay reveals that almost all of the outbreaks
were primarily caused by a failure to adhere to commonsense safety precautions.
5ER718–725. Nothing in them indicates that individual churches that seek to reopen
cannot worship safely. 5ER726.
Nor is the Blueprint narrowly tailored and the least restrictive means for
stopping COVID-19. Under strict scrutiny, the burden is on the state to justify
unequal treatment. Calvary Chapel, 2020 WL 4251360, at *9 (Kavanaugh, J.,
dissenting); see also United States v. Playboy Entm’t Grp., Inc., 529 U.S. 803, 816, 818
(2000). Thus, this Court should be able to review Respondent’s expert declarations

various faiths. Our Lady of Guadalupe Sch. v. Morrissey-Berru, 140 S. Ct. 2049, 2066
(2020).
20

and determine, based on them alone, that Respondent has not met its burden. But
South Bay believes it is important to dissuade the Court of Respondent’s oft-repeated
statement that the expert consensus supports it. See Resp. Br., 11–14, 18–20, 22, 23–
24. According to South Bay’s experts, there are countless more tailored restrictions
that actually comport more closely with the science of public health. 13ER2921–24;
11ER2531–32; 5ER664–68.
This opinion is widely shared. In October 2020, Stanford Professor Dr. Jayanta
Bhattacharya (South Bay’s expert), Harvard Professor Dr. Martin Kulldorff, and
Oxford Professor Dr. Sunetra Gupta decided to write a short Declaration regarding a
more scientifically appropriate response to the pandemic. The Declaration was
written from a global public health and humanitarian perspective, with special
concerns about how the current COVID-19 strategies are forcing children, the
working class and the poor to carry the heaviest burden. See 5ER664–68.
The Declaration offers an alternative approach called Focused Protection,
which contends that the most compassionate approach to the COVID-19 pandemic is
one that spends overwhelming resources to protect the most vulnerable—older people
and some people with chronic conditions—while eschewing lockdowns that harm less
vulnerable populations (people under the age of 60 without chronic conditions) more
than the risk of COVID-19 infection. The Declaration and associated writings provide
concrete suggestions for protecting the vulnerable, including nursing home residents,
older “essential” workers, and older people living in multi-generational households.

21

Since writing the Declaration, the three esteemed Professors have been joined
by 40+ esteemed colleagues (including medical and public health scientists and
medical practitioners) who co-signed the Declaration in early October. Since that
time, the Declaration has been co-signed by 10,000+ medical and public health
scientists, and 30,000+ medical practitioners. California’s approach is the opposite of
“narrowly tailored.”
Further, in South Bay’s action, Respondent provided no response to the
scientific studies and opinion offered by South Bay’s expert regarding how it can
safely engage in singing in its worship services. 12ER2842–2845. And it is important
to remember that to prevent “religious gerrymanders,” Lukumi, 508 U.S. at 534,
courts must not “turn a blind eye to the context in which [a] policy” arises. McCreary
Cty., Ky. v. Am. Civil Liberties Union of Ky., 545 U.S. 844, 866 (2005). For example,
here, the timing of Respondent’s determination that all activities are safer outside
has always been suspicious. On May 25, 2020, Respondent very consciously made a
uniform regulation covering both political protest and worship. 13ER2986, 3071–
3093. That same day, George Floyd was killed, 13ER3003; 14ER3374, and only 18
days later, Respondent promulgated regulations blessing the protests by lifting all
restrictions on outdoor activities, 13ER2988, 3094–3117, a legally wise choice. See
App., 25–28 (collecting cases where courts struck down restrictions on worship due to
favored treatment of protesters). 11 In light of this timing, the burden should be

Notably, Respondent has never disputed the fact that California did not make any
public announcement regarding these regulations.
11

22

heavily placed on Respondent to justify what appears to be gerrymandered
regulations favoring protests—a burden which, based on the present record,
Respondent cannot satisfy. 12
The Blueprint thus “burden[s] substantially more [religious exercise] than is
necessary to further the government’s interests” and so is ipso facto not narrowly
tailored. McCullen v. Coakley, 573 U.S. 464, 486 (2014). Here, the inarguable purpose
of the restrictions on “places of worship” is to stop COVID-19, and yet the Blueprint
subjects comparable activities, for the purposes of the government’s interests, to far
fewer burdens. It thus easily fails strict scrutiny.
2. The Confusion in the Lower Courts, and Multiplicity of California
Actions, Justifies Guidance from this Court.
As stated above, South Bay is filing this amicus curiae brief because it hopes
that this Court’s grant of injunctive relief to Harvest Rock will aid it in its quest to
worship. However, South Bay is also concerned about the many other churches
currently suffering under Governor Newsom’s monarchial regime. Should this Court
order the Ninth Circuit to apply Diocese of Brooklyn in the first instance, South Bay
will not be prejudiced because it could seek relief from the Ninth Circuit promptly.
However, there are numerous California churches currently languishing under
California courts’ misinterpretation of the breadth of S. Bay II.

See 11ER1766–67, 1879–1909; 11ER2425–2443 (Respondent merely collecting three
very weak papers, only one of which was peer-reviewed).
12

23

As stated by Harvest Rock, it is has received letters threatening fines, App.,
12, and churches in Ventura and Santa Clara have been held in contempt or fined
more than $100,000. Reply, 5. n.5. But these are not the only cases. Counsel for South
Bay is representing Grace Community Church and Fr. Trevor Burfitt in litigation
where the only happy resolution is a determination by the courts that Governor
Newsom’s orders were void from the beginning. And in addition to these cases, South
Bay is aware of numerous other administrative citations being issued across the
state, along with cease and desist orders, and other administrative action meant to
thwart the right to worship. See 12ER2586–87, 2724–2824 (collecting instances of
enforcement). Guidance from this Court is desperately needed to protect 40 million
Californians.
CONCLUSION
For the foregoing reasons, South Bay respectfully requests that this Court
grant Applicant Harvest Rock’s emergency application for a writ of injunction,
protecting both Applicant’s rights and the rights of 40 million suffering Californians.

Respectfully submitted,
/s/ Paul M. Jonna
CHARLES S. LIMANDRI
PAUL M. JONNA
Counsel of Record
JEFFREY M. TRISSELL
LIMANDRI & JONNA LLP
Post Office Box 9120
Rancho Santa Fe, CA 92067
(858) 759-9930
pjonna@limandri.com

24

THOMAS BREJCHA
PETER BREEN
THOMAS MORE SOCIETY
309 W. Washington St.
Ste. 1250
Chicago, IL 60606
(312) 782-1680
HARMEET K. DHILLON
MARK P. MEUSER
DHILLON LAW GROUP INC.
177 Post St., Ste. 700
San Francisco, CA 94108
(415) 433-1700
Counsel for Proposed Amici Curiae
DECEMBER 2020

25

